                                                       u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                  OFFICE OF THE INSPECTOR GENERAL
                                                                                   OFFICE OF AUDITS




Final Audit Report
Subject:


                     AUDIT OF THE 2007 AND 2008 

                       CHAMBERSBURG AREA 

                   COMBINED FEDERAL CAMPAIGNS 

                   CHAMBERSBURG, PENNSYL VANIA 





                                            Report No. 3A-CF-OO-IO-033


                                            Date:         January 25                2° 11




                                                            ·-CAUTlON--
TII.s audit report hu h« n distributed to Federal offICials who arc rrsp.::m si blc for the admiRi5lralion of the audited program. Til,! audit
report may (onllin proprietary data which i5 protected by Federal law (i3ll.S.C. '?OS). Tlierdorc, lIo'hilc Ihisaudil rtp4)n iJ anllabk
ullder Iht F"~om of Information AN and mlldf . ... illlbic 10 tht public on the OIG w( bpage. uution nerdl 10 be curcistd Mfo"
rdusing Ihe reporl to lhe ~nn-al puhlic IS II may conl~ill pt"oprida ry information thllt was redacted from I.c publ k ly distribu ted copy.
                               UN ITED STATES OFFICE OF PERSONNEL MANAGEM ENT
                                                 Washington, DC 204 15


 Office of 1M
I ns~Of   Gcnernl




                                             AUDIT REPORT



                                     AUDIT OF THE 2007 AND 2008 

                                       CHAMBERSBURG AREA 

                                   COMBINED FEDERAL CAMPAIGNS 

                                   CHAMBERSBURG, PENNSYLVANIA 



                    Report No. 3A·CF-OO·\O-033                       Date: Ja nuary 25 ! 201 1




                                                                         Michael R. Esser
                                                                         Assistant Inspector General
                                                                           for Audits




            .-::::-:;;::-' "
       w.. w . o~m . , o .
                               -   -- ~--. ~--- ------~
                                                                                                w",w. unJobl .'OV
                              UNITED STATES OFFICE OF PERSONNEL MANAGEMENT 

                                                   Washington. DC 2041 5 


  Ollice of the
Inspel:tor Gener,t1




                                          EXECUTIVE SUMMARY 





                                     AUDIT OF THE 2007 AND 2008 

                                       CHAMBERSBURG AREA 

                                   COMBINED FEDERAL CAMPAIGNS 

                                   CHAMBERSBURG, PENNSYL VANIA 



                      Report No_ 3A-CF-OO-IO-033                        Date: ,January 25,    2011

       The Office of the Inspector General has completed an audit of the 2007 and 2008 Chambersburg
       Area Combined Federal Campaigns (CFe). The United Way of Franklin County,located in
       Chambersburg, Pennsylvania, served as the Principal Combined Fund Organization (PCFO)
       during both campaigns. Our main objective was to detennine if the Chambersburg Area CFe
       was in compliance with T itle 5, Code of Federal Regulations, Part 950 (5 CFR 950), including
       the responsibilities of both the PCFO and Local Federal Coordinating Committee (LFCC). The
       audit identified 13 instances of non-compliance with the regulations (5 CFR 950) governing the
       CFC.

       The foHowing findings represent the results of our audit wo rk as of the date of this report.

                                             AUDIT GUIDE REVIEW

       Our review of the agreed-upon procedures, as performed by the PCFO's Independent Pub lic
       Accountant, did not identify any instances of non-compliance with the CFC Audit Guide.

                                     BUDGET AND CAMPAIGN EXPENSES

       •       LFCC Meeting Minutes Not Maintained

               The LFCC did not maintain meeting minutes or any other record of its discussions and
               decisions dealing with the 2008 CFC .




           w"''' .o p m.'oy
• 	 PCFO's Application Contains Incomplete Language

   The PCFO's application, accepted by the LFCC, did not include specific language required
   by the Federal regulations.

• 	 Approval of Campaign Expenses and Reimbursement

   The PCFO did not request approval from the LFCC before reimbursing itself for 2008
   campaign expenses. Consequently, the LFCC did not review or approve the PCFO's
   reimbursement of these expenses.

• 	 Estimated Expenses

   The PCFO charged estimated expenses to the 2008 CFC campaign.

• 	 Duplicate Expense Charge

   The PCFO charged the 2008 campaign twice for $150 in award certificates.

• 	 2006 Expense Charged to the 2008 Campaign

   The PCFO incorrectly charged the 2008 campaign for audit fees related to the 2006
   campaIgn. 


                   CAMPAIGN RECEIPTS AND DISBURSEMENTS 


• 	 Notification of Designated and Undesignated Amounts

   The PCFO did not notify agencies and federations of the 2008 CFC amounts due to them by
   the date set in OPM's 2008/2009 Calendar of Events.

• 	 Deadline for Campaign Disbursements

   The PCFO did not begin disbursement of the 2008 campaign funds by the April 1, 2009
   deadline, as specified in the Federal regulations.

• 	 Maintaining Interest-Bearing Bank Accounts

   The PCFO did not obtain approval from the Combined Federal Campaign Operations to
   maintain CFC funds in a non-interest bearing bank account for the 2008 campaign.

• 	 Policies and Procedures for Uncashed Checks

   The PCFO did not have written policies and procedures for uncashed checks. Consequently,
   the PCFO did not document its follow-up attempts to reach payees for uncashed checks that
   are over six months old.

                                             ii
•   Cut-Off Procedures for CFC Receipts

    The PCFO did not maintain proper cut-off procedures when recording CFC receipts between
    campaign years. As a result, the PCFO disbursed $302 to the member agencies of the 2008
    campaign in excess of the monies received.

                                         ELIGIBILITY

•   Eligibility Review of Local Organizations

    The LFCC did not provide documentation to support that it reviewed all of the eligibility
    requirements, as specified by the Federal regulations, for organizations that applied to
    participate in the local campaign.

•   Deadline to Issue Notice of Eligibility Decisions

    The LFCC did not issue notice of its eligibility decisions within 15 business days of the
    closing date for receipt of applications. The closing date for the 2008 campaign was
    March 3, 2008.

                                    PCFO AS A FEDERATION

Our review ofthe PCFO's activities as a federation showed that it complied with the applicable
provisions of 5 CFR 950.




                                                111
                                                   CONTENTS 

                                                                                                                            PAGE

       EXECUTIVE SlTMMARY ............................................................................................. i 


  I.   INTRODUCTION AND BACKGROUND .................................................................... 1 


 II.   OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................2 


III.   AUDIT FINDINGS AND RECOMMENDATIONS ...................................................... 6 


       A.     AlTDIT GUIDE REVIEW ..................................................................................... 6 


       B.     BUDGET AND CAMPAIGN EXPENSES .......................................................... 6 


              1.   LFCC Meeting Minutes Not Maintained ......................................................... 6 

              2.   PCFO's Application Contains Incomplete Language ...................................... 7 

              3.   Approval of Campaign Expenses and Reimbursement.. .................................. 8 

              4.   Estimated Expenses .......................................................................................... 9 

              5.   Duplicate Expense Charge .............................................................................. 10 

              6.   2006 Expense Charged to the 2008 Campaign ............................................... 11 


       C.     CAMP AIGN RECEIPTS AND DISBURSEMENTS .......................................... 12 


              1.   Notification of Designated and Undesignated Amounts ................................ 12 

              2.   Deadline for Campaign Disbursements .......................................................... 13 

              3.   Maintaining Interest-Bearing Bank Accounts ................................................ 13 

              4.   Policies and Procedures for Uncashed Checks ............................................... 14 

              5.   Cut-Off Procedures for CFC Receipts ............................................................ 15 


       D.     ELIGIBILITY ....................................................................................................... 16 


              1. Eligibility Review of Local Organizations ..................................................... 16 

              2. Deadline to Issue Notice of Eligibility Decisions ........................................... 17 


       E.     PCFO AS A FEDERATION ................................................................................ 17 


IV.    MAJOR CONTRIBUTORS TO THIS REPORT .......................................................... 18 


       APPENDIX 	 (The PCFO and LFCC's response, dated October 5,2010, to the draft
                  audit report.)
                     I. INTRODUCTION AND BACKGROUND 


INTRODUCTION 


This report details the findings and conclusions resulting from our audit of the Chambersburg
Area Combined Federal Campaigns (CFC) for 2007 and 2008. The audit was performed by the
Office of Personnel Management's (OPM) Office of the Inspector General (OIG), as authorized
by the Inspector General Act of 1978, as amended.

BACKGROUND

The CFC is the sole authorized fund-raising drive conducted in Federal installations throughout
the world. It consists of 242 separate local campaign organizations located throughout the
United States, including Puerto Rico, the Virgin Islands, and foreign assignments. The
Combined Federal Campaign Operations (CFCO) at OPM has the responsibility for management
of the CFC. This includes publishing regulations, memorandums, and other forms of guidance to
Federal offices and private organizations to ensure that all campaign objectives are achieved.

CFC's are conducted by a Local Federal Coordinating Committee (LFCC) and administered by a
Principal Combined Fund Organization (PCFO). The LFCC is responsible for organizing the
local CFC, determining the eligibility of local voluntary organizations, selecting and supervising
the activities of the PCFO, and acting upon any problems relating to a voluntary agency's
noncompliance with the policies and procedures of the CFC. The PCFO is responsible for
training employee key-workers and volunteers; preparing pledge cards and brochures;
distributing campaign receipts; submitting to an extensive and thorough audit of its CFC
operations by an Independent Certified Public Accountant (lPA) in accordance with generally
accepted auditing standards; cooperating fully with OIG audit staff during audits and
evaluations; responding in a timely and appropriate manner to all inquiries from participating
organizations, the LFCC, and the Director ofOPM; and consulting with federated groups on the
operation of the local campaign.

Executive Orders No. 12353 and No. 12404 established a system for administering an annual
charitable solicitation drive among Federal civilian and military employees. Title 5 Code of
Federal Regulations Part 950 (5 CFR 950), the regulations governing CFC operations, sets forth
ground rules under which charitable organizations receive Federal employee donations.
Compliance with these regulations is the responsibility of the PCFO and LFCC. Management of
the PCFO is also responsible for establishing and maintaining a system of internal controls.

All findings from our previous audit of the Chambersburg Area CFC (Report Number 2A-CF­
04-91-E3, dated November 25, 1991), covering the 1990 campaign year, have been satisfactorily
resolved.

The initial results of our audit were discussed with PCFO and LFCC officials during an exit
conference held on May 21,2010. A draft report was provided to the PCFO and the LFCC on
September 7, 2010, for review and comment. The PCFO and LFCC's response to the draft
report was considered in preparation of this final report and is included as an Appendix.



                                                1

               II. OBJECTIVES, SCOPE, AND METHODOLOGY 


OBJECTIVES

The primary purpose of our audit was to determine if the Chambersburg Area CFC was in
compliance with 5 CFR 950, including the activities of both the PCFO and LFCC. Our audit
objective for the 2007 campaign was:

   Audit Guide Review
   • 	 To determine if the IPA completed the Agreed-Upon Procedures (AUP) as outlined in the
       CFC Audit Guide (For Campaigns with Pledges Less Than $150,000).

Additionally, our specific audit objectives for the 2008 campaign were as follows:

   Budget and Campaign Expenses
   • 	 To determine ifthe PCFO solicitation, application, campaign plan, and budget were in
       accordance with the regulations.
   • 	 To determine if the expenses charged to the campaign were actual, reasonable, allocated
       properly, approved by the LFCC, and did not exceed 110 percent of the approved budget.

   Campaign Receipts and Disbursements
   • 	 To determine if the pledge card format was correct and if the pledge card report agrees
       with the actual pledge cards.
   • 	 To determine if incoming pledge monies were allocated to the proper campaign year and
       that the net funds (less expenses) were properly distributed to member agencies and
       federations.
   • 	 To determine if the member agencies and federations were properly notified of the
       amounts pledged to them and that donor personal information was only released for those
       who requested the release of information.

   Eligibility
   • 	 To determine ifthe charity list (CFC brochure) was properly formatted and contained the
       required information; if the charitable organization application process was open for the
       required 30 day period; if the applications were appropriately reviewed, evaluated, and
       approved; if the applicants were notified of the eligibility decisions timely; and if the
       appeals process for denied applications was followed.

   PCFO as a Federation
   • 	 To determine ifthe amounts received by the PCFO as a federation reconciled to those
       disbursed by the CFC; if the PCFO properly distributed funds to its federation members;
       if expenses charged by the PCFO (to its federation members) were documented properly;
       and ifthe disbursements made to the federation members were accurate.




                                                2

SCOPE AND METHODOLOGY

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on the audit objectives.

The audit covered campaign years 2007 and 2008. The United Way of Franklin County, located
in Chambersburg, Pennsylvania, served as the PCFO during both campaigns. The audit
fieldwork was conducted at the offices of the PCFO from May 17 through May 21, 2010.
Additional audit work was completed at our Washington, D.C. and Cranberry, Pennsylvania
offices.

The Chambersburg Area CFC received campaign pledges, collected campaign receipts, and
incurred campaign administrative expenses for the 2007 and 2008 campaigns as shown below:

    Campaign               Total                     Total                Administrative
      Year                Pledges                   Receipts                Expenses
                          $67,146                   $56,413                 $11,853
      2007
                          $71,215                   $64,307                  $10,421
      2008


In conducting the audit we relied to varying degrees on computer-generated data. Our review of
a sample of campaign expenses and supporting data, a sample of pledge card entries, and the
distribution of campaign contributions and related bank statements, verified that the computer­
generated data used in conducting the audit was reliable. Nothing came to our attention during
our review ofthe data to cause us to doubt its reliability.

We considered the campaign's internal control structure in planning the audit procedures. We
gained an understanding of the management procedures and controls to the extent necessary to
achieve our audit objectives. We relied primarily on substantive testing rather than tests of
internal controls. The audit included tests of accounting records and such other auditing
procedures as we considered necessary to determine compliance with 5 CFR 950 and CFC
Memorandums.

To accomplish our objective for the Audit Guide Review, we reviewed the CFC Audit Guide (for
campaigns with pledges less than $150,000) and completed the AUP checklist to verify that the
IP A completed and documented the AUP steps.

In regard to our objectives concerning the 2008 campaign's budget and campaign expenses, we
accomplished the following:
    • 	 Reviewed the PCFO application to verify if it was complete.
    • 	 Reviewed a copy of the public notice to prospective PCFOs and LFCC meeting minutes
        to verify that the PCFO was selected timely.


                                               3

   • 	 Traced and reconciled amounts on the PCFO's Schedule of Actual Expenses to the
       PCFO's general ledger.
   • 	 Reviewed the PCFO's budgeted expenses, the LFCC's approval of the budget, and
       matched a sample of actual expenses to supporting documentation. We judgmentally
       selected all expenses, except for two low dollar expenses, amounting to a sample total of
       $10,370 out ofa universe of $10,421.
   • 	 Reviewed the LFCC meeting minutes and verified if the LFCC authorized the PCFO's
       reimbursement of campaign expenses.
   • 	 Compared the budgeted expenses to actual expenses and determined if actual expenses
       exceeded 110 percent of the approved budget.

To determine if the 2008 campaign's receipts and disbursements were handled in accordance
with CFC regulations, we reviewed the following:
   • 	 A judgmental sample of pledge cards from the 2008 PCFO's Donor Pledge Campaign
        Report and compared the pledge information from the report to the actual pledge cards.
        We judgmentally selected the top 25 pledge cards with the highest amounts pledged,
        totaling $24,124 from a universe of365 pledge cards totaling of$71,215.
   • 	 Cancelled distribution checks to verify that the appropriate amount was distributed in a
        timely manner.
   • 	 One-time disbursements to verify that the PCFO properly calculated pledge loss and
        disbursed the funds in accordance with the ceiling amount established by the LFCC.
    • 	 The PCFO's most recent listing of outstanding checks to verify that the PCFO was
        following its policy for such checks.
    • 	 The Pledge Notification Letters to verify that the PCFO notified the CFC agencies of the
        designated and undesignated amounts due them by the date required in the regulations.
    • 	 The donor list letters sent by the PCFO to organizations to verify the letters properly
        notify the organization of the donors who wish to be recognized.
    • 	 CFC receipts and distributions from the PCFO's campaign bank statements, campaign
        receipts, and agency disbursements and campaign expense support to verify whether the
        PCFO accurately recorded and disbursed all 2008 campaign receipts and disbursements.
    • 	 All bank statements used by the PCFO to verify that the PCFO was properly accounting
        for and distributing funds.
   • 	 The PCFO's cutoff procedures and bank statements to verify that funds were allocated to
        the appropriate campaign year.
    • 	 The Gen~ral Designation Options and Undesignated Funds Spreadsheet and the
        Allocations and Disbursements Spreadsheet to verify disbursements were accurate and
        proportionate to the PCFO's allocation rates.

To determine ifthe LFCC and PCFO were in compliance with CFC regulations in regards to
eligibility for the 2008 campaign, we reviewed the following:
    • 	 The public notice to prospective charitable organizations to determine if the LFCC
         accepted applications from organizations for at least 30 days.
    • 	 The process and procedures for the application evaluation process.
    • 	 Sample eligibility letters to verify they were properly sent by the LFCC.
    • 	 The LFCC's processes and procedures for responding to appeals from organizations.




                                               4

Finally, to detennine if the PCFO was in compliance with the CFC regulations as a federation
(United Way of Franklin County) for the 2008 campaign, we reviewed the following:
    • 	 Data reported on the CFC Receipts Schedule with supporting documentation to verify
        whether receipts were properly recorded.
   • 	 The CFC Distribution Schedule to ensure that United Way of Franklin County did not
        disburse any funds to member agencies not participating in the CFC.
   • 	 The United Way of Franklin County's contract with its member agencies to detennine if
        the fees were reasonable and supported.

The samples mentioned above, that were selected and reviewed in perfonning the audit, were not
statistically based. Consequently, the results could not be projected to the universe since it is
unlikely that the results are representative of the universe taken as a whole.




                                               5

             III. AUDIT FINDINGS AND RECOMMENDATIONS 

A.   AUDIT GUIDE REVIEW 


     Our review of the agreed-upon procedures, as performed by the PCFO's Independent
     Public Accountant, did not identify any instances of non-compliance with the CFC Audit
     Guide.

B.   BUDGET AND CAMPAIGN EXPENSES

     1.   LFCC Meeting Minutes Not Maintained

          The LFCC did not maintain meeting minutes or any other record of its discussions
          and decisions dealing with the 2008 CFC, including a performance review prior to a
          multi-year agreement, eligibility decisions, PCFO budget approval, and approval of
          the PCFO's reimbursement of campaign expenses.

          In accordance with 5 CFR 950.1 04 (b) (1), the LFCC responsibilities include
          maintaining minutes of LFCC meetings and responding promptly to any request for
          information from the Director.

          We requested the PCFO and LFCC to submit all minutes from CFC meetings dealing
          with the 2008 campaign including any attachments, emails, and/or handouts.
          According to the PCFO, the LFCC did not maintain meeting minutes or any other
          records of its discussions with the PCFO pertaining to the 2008 CFC. The PCFO
          acknowledged this was an oversight as most discussions between the PCFO and
          LFCC were conducted on the phone and campaign business was "self-managed",
          meaning that campaign tasks and duties were autonomously carried out by the PCFO
          andLFCC.

          By not maintaining meeting minutes of its discussions and decisions related to CFC
          business, the I . .FCC lacks accountability and documentation of the reasoning for its
          final decisions.

          PCFO and LFCC's Comments:

          The PCFO and LFCC agree with this finding. The LFCC has begun maintaining
          minutes of each committee meeting and now records the attendance, actions, and
          decisions from those meetings.

          The LFCC also appointed a new Campaign Chair to the committee that will work on
          the 2010 and 2011 campaigns and build a plan for the continued commitment of
          committee members and the succession of campaign leadership.




                                                6

     In addition, the LFCC has set up bi-monthly meetings with designated times and
     locations to ensure that the committee follows a plan to keep campaign activities on
     track.

     Recommendation 1

     We recommend that the CFCO ensure that the LFCC understands its responsibilities
     under regulation 5 CFR 950.104 (b) (1) and maintains minutes of its meetings for
     future campaigns.

2.   PCFO's Application Contains Incomplete Language

     The PCFO's application, accepted by the LFCC, did not include specific language
     required by the Federal regulations.

     5 CFR 950.1 05 (c) (2) (iii) requires that the applicant sign a pledge to lIabide by the
     directions, decisions, and supervision of the LFCC and/or Director." According to 5
     CFR 950.101, IIDirecfor means the Director ofthe Office of Personnel Management
     or hislher designee." Additionally, 5 CFR 950.105 (c) (2) (i) requires "A statement
     signed by the applicant's local director or equivalent pledging to ... administer the CFC
     fairly and equitably. II

     We reviewed the PCFO's application to determine if it was in compliance with CFC
     regulations. From our review, we determined that the PCFO's statement was missing
     a pledge to administer the CFC equitably and to abide by the directions, decisions,
     and supervision of the LFCC and/or Director. Instead, the statement read, "The
     United Way pledges to fairly administer the CFC, abiding by all regulations to the
     extent that we are aware of such regulations as posted on a timely manner and further
     promises to conduct all affairs of the CFC separately from the United Way's own
     campaign operations. Additionally, I fully understand that we are subject to decisions
     and supervision of the Local Federal Coordinating Committee."

     By neither acknowledging nor accepting all responsibilities required by the Federal
     regulations in administering an efficient and effective campaign, the PCFO
     jeopardizes the ability of the CFC to operate properly from the start.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. Beginning with the 2011 campaign
     year, all future applications will contain correct language as directed by the CFC
     regulations. As an effort of good faith, the PCFO resubmitted its request and budget
     for the 2010 campaign with the corrected language.




                                           7

     Recommendation 2

     We recommend that the CFCO ensure that the PCFO's amended application reflects
     the proper language required by 5 CFR 950.105 (c) (2) and that the LFCC verifies the
     correct language is being used prior to approving PCFO applications in the future.

3.   Approval of Campaign Expenses and Reimbursement

     Based on a discussion with the PCFO, we determined that the PCFO did not request
     approval from the LFCC before reimbursing itself for 2008 campaign expenses.
     Consequently, the LFCC did not approve the actual campaign expenses and did not
     authorize the PCFO's reimbursement of these campaign expenses.

     In accordance with 5 CFR 950.106 (a), "The PCFO shall recover from the gross
     receipts of the campaign its expenses, approved by the LFCC, reflecting the actual
     costs of administrating the local campaign." Furthermore,S CFR 950.1 04 (b) (17)
     holds the LFCC responsible for "Authorizing to the PCFO reimbursement of only
     those campaign expenses that are legitimate CFC costs and are adequately
     documented." This regulation is a control designed to help ensure that the PCFO
     reimburses itself for only appropriate and supportable expenses.

     According to the PCFO, the actual campaign expenses were not submitted to the
     LFCC for approval because the PCFO believed that the approved budget was
     sufficient approval for reimbursement of expenses. The PCFO commented that
     unless there is a big change in the budget and/or expenses, the PCFO will not request
     the LFCC's approval for campaign expense reimbursement.

     As a result ofthe LFCC not reviewing and approving the actual 2008 campaign
     expenses, the PCFO may have been reimbursed for expenses that were not related to
     the CFC.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. The LFCC Chair has met with the
     PCFO, and together, they have developed plans for the LFCC committee to meet
     prior to the reimbursement of expenses for the campaign and formally review all
     expenses at the January 2011 board meeting to ensure that the expenses are approved
     before reimbursement.

     As part of this process, the LFCC Chair will ensure that meeting minutes reflect the
     review and approval of campaign expenses from the just completed campaign in
     January 2011 and all subsequent campaigns.

     Additionally, the PCFO and the LFCC Chair reviewed the CFC regulations to ensure
     that both parties understand the responsibilities that relate to campaign expenses and
     reimbursement of those expenses. The LFCC will receive training related to all



                                          8

     LFCC responsibilities, prior to the review ofPCFO expenses at the January LFCC
     meeting.

     Recommendation 3

     We recommend that the CFCO ensure that the PCFO understands that it must submit
     actual expenses to the LFCC for approval prior to reimbursement.

     Recommendation 4

     We recommend that the CFCO ensure that the LFCC reviews, approves, and
     documents its authorization of the PCFO's reimbursement for campaign expenses.

4.   Estimated Expenses

     The PCFO charged estimated expenses to the 2008 CFC campaign.

     According to 5 CFR 950.105 (3 ) (d) (7), the PCFO is responsible for "Maintaining a
     detailed schedule of its actual CFC administrative expenses with, to the extent
     possible, itemized receipts for the expenses. The expense schedule must be in a
     format that can be reconciled to the PCFO's budget .... " Furthermore, 5 CFR 950.106
     (a) states "The PCFO shall recover from the gross receipts ofthe campaign its
     expenses, approved by the LFCC, reflecting the actual costs of administering the local
     campaign."

     As part of its proposed budget, the PCFO included an amount totaling $4,500 for
     campaign administration. This same amount was also included as an actual expense
     charged to the 2008 campaign. Consequently, we requested supporting
     documentation to determine if the $4,500 amount was CFC related, allocated in a fair
     or reasonable method, and allocated based on actual expenses. According to the
     PCFO, the administration expense of $4,500 is based on a time study that estimated
     the hours spent by the PCFO staff working on the CFC four to five years ago. The
     PCFO could not provide documentation to support this time study.

     Without a detailed schedule of actual time spent working on the CFC, the PCFO
     could overestimate the administrative expenses being charged to the campaign,
     thereby reducing the funds due to agencies and federations.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. In 2010, the PCFO began maintaining
     records of administrative time spent toward the CFC campaign. This will ensure that
     future campaign years' proposed budgets will reflect a more accurate picture of the
     time dedicated to administration of the campaign as well as the compensation of the
     CFC dedicated staff.




                                         9
     Recommendation 5

     We recommend that the CFCO and LFCC require the PCFO to revise its current
     methodology for allocating CFC administrative expenses to match the requirements
     in 5 CFR 950.105 (3) (d) (7) and 5 CFR 950.106 (a), and ensure that this
     methodology is correctly implemented for the currently active and future campaigns.

5.   Duplicate Expense Charge

     The PCFO charged the 2008 campaign twice for $150 in award certificates.

     5 CFR 950.106 (a) states, "The PCFO shall recover from the gross receipts of the
     campaign its expenses, approved by the LFCC, reflecting the actual costs of
     administering the local campaign." Furthermore, 5 CFR 950.104 (b) (17) states that it
     is the LFCC's responsibility for "Authorizing to the PCFO reimbursement of only
     those campaign expenses that are legitimate CFC costs and are adequately
     documented." This provision is a control designed to help ensure that the PCFO
     reimburses itself for only appropriate and supportable expenses.

     We traced each expense from the 2008 Campaign Expense Schedule to supporting
     documentation to determine if the expenses agreed to the schedule and were
     justifiable. Our review of the invoices showed that a $150 expense for award
     certificates was entered twice in the CFC accounting records. When the PCFO
     purchased award certificates, it accidentally mistook the order receipt and the actual
     invoice as two separate expenses and entered them into the accounting system as two
     entries. The PCFO didn't realize that the two receipts were for the same order since
     the amounts were slightly different and there was a large time lag from making the
     purchase and entering the expenses into the accounting system.

     As a result of entering a duplicate expense into the CFC's accounting records, an
     inappropriate amount of $150 was charged to the 2008 campaign.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. The LFCC will have the opportunity to
     double check all expenses in future years and there will be an additional check and
     balance in place to assure a correct record of billing. The PCFO will also reimburse
     the CFC Campaign for $150 that was billed twice in 2008.

     In addition, the corrective action plan includes training for committee members to
     ensure that they understand and are reminded oftheir responsibilities listed in 5 CFR
     950.106 and 950.104.




                                         10 

     Recommendation 6

     We recommend that the CFCO require the PCFO to reimburse the current campaign
     $150 as undesignated funds.

     Recommendation 7

     We recommend that the CFCO ensure that the LFCC reviews, approves, and
     documents its authorization ofthe PCFO's reimbursement for campaign expenses.

6.   2006 Expense Chars:;ed to the 2008 Campaign

     The PCFO incorrectly charged the 2008 campaign for audit fees related to the 2006
     campaign.

     According to 5 CFR 950.106 (b) "The PCFO may only recover campaign expenses
     from receipts collected for that campaign year." Additionally, CFC Memorandum
     2008-09 clarifies regulation 5 CFR 950.106 (b) by explaining "the expenses incurred
     for the audit of a campaign must be paid from funds from the campaign being
     audited."

     Based on our review of 2008 campaign expenses, we determined that the PCFO
     incorrectly charged the 2008 campaign for expenses that should have been charged to
     the 2006 campaign. Specifically, we identified that the PCFO received an invoice in
     the amount of $1 ,200 from its Independent Public Accountant in August 2008 for an
     audit performed on the 2006 campaign. The PCFO paid this invoice using 2008
     campaign funds instead of accruing and withholding the estimated audit fee from the
     last distribution in the 2006 campaign Applying the 2006 audit fee to the 2008
     campaign is inappropriate because the PCFO should only incur expenses related to
     that year's campaign.

     As a result of charging prior year campaign expenses to the 2008 campaign, the net
     designations due to charities were adversely effected.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. The PCFO and LFCC now understand
     that the CFC regulations require that the campaign expenses be reimbursed in the
     year the campaign closes. The LFCC Chair will ensure that the PCFO and LFCC
     committee work together to create a plan to assign campaign expenses to the proper
     campaign year.

     Recommendation 8

     We recommend that the CFCO and LFCC work with the PCFO to put procedures in
     place to ensure that it properly matches expenses with the related campaign year.



                                        11
          Recommendation 9

          We recommend that the CFCO ensure that the PCFO correctly implements these new
          procedures for the currently active campaigns and provides guidance to the PCFO in
          regards to audit fees received related to closed campaigns.

C.   CAMPAIGN RECEIPTS AND DISBURSEMENTS

     1.   Notification of Designated and Un designated Amounts

          The PCFO did not notify agencies and federations of the 2008 CFC amounts due to
          them by the date set in OPM's 2008/2009 Calendar of Events.

          5 CFR 950.901 (i) (1) requires that the PCFO notify federations, national and
          international organizations, and local organizations of the amounts (if any) designated
          to them and their members and of the undesignated amounts due them no later than a
          date set by OPM. According to the CFC Calendar of Events, the deadline for the
          PCFOs to notify 2008 CFC participating charities and federations was March 16,
          2009.

          We reviewed the notifications sent by the PCFO to determine if the PCFO notified
          federations and organizations of the amounts designated to them and their members
          and of the undesignated amounts due to them by no later than the March 16th
          deadline. Per the PCFO, its notifications of designated and undesignated amounts
          were sent on April 23, 2009, along with the initial disbursement checks in order to
          save postage.

          As a result of not sending designated and undesignated funds notification letters to all
          agencies and federations ofthe 2008 campaign and not reporting all funds pledged to
          them, the agencies and federations could not have known the monies due to them for
          that campaign. Not knowing the amount of these funds could severely restrict the
          planning and budgeting abilities of the CFC agencies and federations depending upon
          the monies donated by Federal employees.

          PCFO and LFCC's Comments:

          The PCFO and LFCC agree with this finding. Each January, the LFCC will be
          apprised of the OPM Calendar of Events and review that calendar at the scheduled
          January board meeting. In the board meetings that follow that year, the PCFO will
          provide an update of disbursements and receipts to the LFCC for review so that the
          LFCC can ensure that the PCFO follows all calendar deadlines, including notification
          of the CFC's participating charities and federations of their designations. As a show




                                               12 

     of good faith, the PCFO/LFCC supplemented its response to the draft report with
     upcoming meeting agendas that outline the activities for the meetings, such as a
     review of campaign time-frames.

     Recommendation 10

     We recommend that the LFCC ensure that the PCFO notifies CFC participating
     charities and federations ofthe amounts due to them by the deadline listed in the CFC
     Calendar of Events for each year.

2.   Deadline for Campaign Disbursements

     The PCFO did not begin disbursement of 2008 campaign funds by the April 1, 2009
     deadline, as specified in the Federal regulations.

     According to 5 CFR 950.901 (i) (2), "The PCFO will distribute all CFC receipts
     beginning April 1, and quarterly thereafter."

     We reviewed the PCFO's April 2009 disbursement checks to determine if initial
     disbursements were made by the April 1st deadline. We found that the initial
     disbursement was not made until April 23, 2009,22 calendar days (16 business days)
     past the April 1, 2009 deadline.

     By not adhering to the Federal regulations, the PCFO runs the risk of delaying the
     recipients' use of entitled funds.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. As part of their corrective action plan,
     the LFCC will review OPM's Calendar of Events at each board meeting and ensure
     that the PCFO sends all reports and payments by the imposed deadlines.

     Recommendation 11

     We recommend that the LFCC ensure that the PCFO disburses campaign funds by the
     deadlines listed in Federal regulations.

3.   Maintaining Interest-Bearing Bank Accounts

     The PCFO did not obtain approval from the CFCO to maintain CFC funds in a non­
     interest-bearing bank account for the 2008 campaign.

     5 CFR 950.105 (d) (8) requires the PCFO to keep and maintain CFC financial records
     and interest-bearing bank accounts separate from the PCFO's internal organizational
     financial records and bank accounts.




                                         13 

     Based on our review ofthe bank statements and discussions with the PCFO, the
     established M&T Bank checking account, into which the 2008 campaign receipts are
     deposited, is not interest-bearing. The PCFO reasoned that an interest-bearing bank
     account will cost more in fees than the amount of interest that can be earned on the
     money deposited. Although the PCFO reasonably saw no benefit in opening an
     interest-bearing bank account, the PCFO did not seek approval from the CFCO in
     forgoing the Federal regulations. The PCFO has begun to research new banking
     services that provide interest-bearing bank accounts.

     As a result of not adhering to the Federal regulations, potential interest earned from
     idle campaign funds was lost.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. The PCFO requested permission from
     the LFCC to move campaign funds into a savings account that will bear interest for
     all future campaigns. The LFCC Committee approved this course of action at the
     September 28,2010 meeting, as recorded in the minutes.

     Recommendation 12

     We recommend that the CFCO ensure that the PCFO is maintaining CFC funds in an
     interest-bearing bank account that is cost effective to the campaign.

4.   Policies and Procedures for Uncashed Checks

     The PCFO did not have written policies and procedures for uncashed checks.
     Consequently, the PCFO did not document its follow-up attempts to reach payees for
     uncashed checks that are over six months old.

     Section C of CFC Memorandum 2006-5 states, "PCFOs must develop and follow
     policies and procedures regarding uncashed checks. We recommend that this policy
     be documented and implemented after a check has gone uncashed for six months.
     We recommend the procedures include at least three documented follow-up attempts
     to reach the payee by phone and email. If it is determined that the payee is no longer
     active, the funds must be distributed among the remaining organizations for that
     campaign as undesignated funds."

     We requested from the PCFO its policies and procedures related to uncashed checks.
     The PCFO responded that there were no written policies and procedures for uncashed
     checks and were unaware of the memorandum's guidance in establishing uncashed
     checks policies and procedures.

     Since policies and procedures are not in place for uncashed checks, and follow-up
     attempts to the payees were not documented, we can not confirm the PCFO's attempts
     to honor pledge dollars donated to charities by Federal employees. Because the



                                          14 

     checks remain in an uncashed status, the pledged amounts from these checks were not
     properly distributed.

     PCFO and LFCC's Comments:

     The PCFO and LFCC agree with this finding. The PCFO has drafted a new policy
     that documents its practices for handling uncashed checks. All PCFO staff have been
     instructed to follow the policy and to document all attempts to follow-up. The PCFO
     provided us with a copy of its new policy for handling uncashed checks, which was
     approved by the LFCC on September 28,2010.

     Recommendation 13

     We recommend that the LFCC ensures that the PCFO has implemented its policies
     and procedures for uncashed checks so that it fully encompasses the
     recommendations of CFC Memorandum 2006-5.

5.   Cut-Off Procedures for CFC Receipts

     The PCFO did not maintain proper cut-off procedures when recording CFC receipts
     between campaign years. As a result, the PCFO disbursed $302 to the member
     agencies of the 2008 campaign in excess of the monies received.

     According to 5 CFR 950.901 (i) (2), the PCFO is responsible for the accuracy of the
     disbursements it transmits to recipients. CFC Memorandum 2003-4 provides
     guidance for the PCFO to correctly track and record CFC receipts in order to ensure
     an accurate cut-off of transmitted CFC receipts between campaigns. Specifically, the
     Memorandum directs the PCFO to ensure that checks and EFTs from payroll offices
     are accompanied by a statement identifying the agency, the dates ofthe pay period,
     and the total number of employee deductions. If this information is not included with
     the checks and EFTs, then the PCFO should contact the payroll offices to request that
     it be provided. Furthermore, the Memorandum provides additional guidance to assist
     in the tracking and analysis of CFC receipts prior to the first payroll deductions
     received to ensure an accurate collection of CFC receipts. Collections in excess of
     the amounts pledged should be reported to the payroll office and/or LFCC and CFCO
     for resolution.

     We reviewed the PCFO's 2008 Campaign Receipts and Disbursements Schedule to
     determine if all receipts were allocated to the correct campaign year and properly
     disbursed, less administrative expenses, by the end of the campaign. The total
     variance between bank deposits and the PCFO's reported campaign receipts and
     disbursements was $302. The variance shows that more funds were disbursed for the
     2008 campaign than what was received in the form of EFTs and checks. The
     difference is due to improper cut-off procedures between campaign years.




                                         15 

          Because the PCFO did not follow proper cut-off procedures to identify campaign
          receipts, recipients from other campaign years did not receive $302 in charitable
          contributions.

          PCFO and LFCC's Comments:

          The PCFO and LFCC agree with this finding. To address the problem, the LFCC will
          review all payments, receipts, and disbursements of the Chambersburg CFC during
          regular meetings with the PCFO. The PCFO and LFCC provided us with the most
          recent meeting minutes and agendas for future meetings all showing that time will be
          spent reviewing campaign payments, receipts, and disbursements.

          Recommendation 14

          We recommend that the CFCO and LFCC ensure that the PCFO's cut-off procedures
          are in accordance with the guidance outlined in CFC Memorandum 2003-4 and the
          applicable Federal regulations so that campaign receipts are properly tracked,
          recorded, and disbursed within the appropriate campaign year.

D.   ELIGIBILITY

     1.   Eligibility Review oCLocal Organizations

          The LFCC did not provide documentation to support that it reviewed all of the
          eligibility requirements, as specified by the Federal regulations, for organizations that
          applied to participate in the local campaign.

          5 CFR 950.104 (b) (3) states that determining the eligibility oflocal organizations
          that apply to participate in the local campaign is an exclusive responsibility of the
          LFCC and may not be delegated to the PCFO.

          We evaluated the criteria used by the LFCC to determine the eligibility of local
          organizations applying to participate in the 2008 campaign. As part of our audit, we
          had to determine if the criteria included the required regulations prescribed in 5 CFR
          950 and if the LFCC made the final eligibility determination. During our review, we
          identified three organizations that were missing evidence of an eligibility
          determination by the LFCC.

          Without proper review by the LFCC, the CFC could include organizations that do not
          meet the requirements of Federal regulations.

          PCFO and LFCC's Comments:

          The PCFO and LFCC agree with this finding. The LFCC Chair ensures that all future
          applications for the Chambersburg CFC Campaign will be reviewed for regulation
          compliance after the LFCC Committee performs an initial review of the applications.



                                               16 

          Recommendation 15

          We recommend that the CFCO ensure that the LFCC complies with 5 CFR 950.104
          (b) (3) and properly documents its review of organization applications.

     2.   Deadline to Issue Notice of Eligibility Decisions

          The LFCC did not issue notice of its eligibility decisions within 15 business days of
          the closing date for receipt of applications. The closing date for the 2008 campaign
          was March 3, 2008.

          5 CFR 950.801 (a) (5) states that the LFCC "must issue notice of its eligibility
          decisions within 15 business days of the closing date for receipt of applications." The
          closing date for the 2008 campaign was March 3,2008.

          We reviewed a sample of eligibility letters that were sent by the LFCC to determine if
          the LFCC's eligibility decisions were issued within 15 business days of the closing
          date ofthe applications. From our review, we determined that the eligibility
          notification letters were dated and sent June 17,2008, instead of the March 24,2008
          deadline (15 business days after March yd).

          As a result of issuing late notifications, agencies and federations were not notified of
          the CFC's eligibility decisions in a timely manner.

          PCFO and LFCC's Comments:

          The PCFO and LFCC agree with this finding. The LFCC Chair and the LFCC
          committee have worked together to create a plan for ensuring that notices of
          eligibility are issued in accordance with the Federal regulations. The LFCC expanded
          the review committee to provide a one-day review of applications and immediate
          turnaround for communication to applicants by the required deadlines.

          Recommendation 16

          We recommend that the CFCO ensure that the LFCC issues notice of eligibility
          decisions within 15 days of the closing date for receipt of applications in compliance
          with 5 CFR 950.801 (a) (5).

E.   PCFO AS A FEDERATION

     Our review of the PCFO's activities as a federation showed that it complied with the
     applicable provisions in 5 CFR 950.




                                               17 

             IV. MAJOR CONTRIBUTORS TO THIS REPORT

Spcdal Audits Group

            Auditor-in-Charge

           Auditor


            Senior Tearn Leader

                  Group \.- 01,,,,




                                     18 

                                                                                                           APPENDIX



                                                                                      10lG veT - fl All 7' 2C
Chambersburg CFC Campaign #0740
United Way Franklin County, PCF O
182 S. Second Street
Chambersburg PA 17201
Phon e 71 7-262-001 5
Fax· 71 7' 26 2-0018

         Oc to her 5, 2010

         O!lit:'-, I ll" Pe rsonnel Mnllagl:tnc nt 

         O !lie..: o f Ihe            (Je neral 





         C\,;:   f-(c ilh Willingham 

          i)in:dor, Co mbined Feele ral Camp;l igll Operatio ns 


         I kar _               ,

         I !nilcJ \Vay of Fnlll!.d in County as I)C FO o r the C hambers burg            e re
                                                                                           Campa ig n #0740.
         a lld I ,eUc rkellllY Arm y O t: POI , as LFCC     or
                                                            the cOoIlllpaig n, have rcad a nd arc lakin g the
         IinJings PI" the o rrico.! o f Ihe Inspector Gene ml vc ry serio us ly. Thi s audi t was trul y an
         cdu caliuH;ll ex ~ r i c lll~ c for everyone involved with Ollr campai gn. and we ;He using ,hi
         as an OpP0l1 lllli ly to improve campai gn stru cture, reco rd keepin g a nd adillini strali vt:
         prnccd un:s to meet o r e x\,;cet..! your rcquircmc nt5 Ii:Jr the futurc.

         Our t.:orrccti vc pl an lor eac h H:t.:ll lllmendati o n from yo ur report will b..: addrcsscd in orde r
         as rclc rcnccd from your o rig inal dra n re port. Our LFCC Co mmittee and PC FO S till have
         alread y begufl work to ward correcting lIlost o f the findin gs, and plans art: ill place to
         addn.:ss a lilindings by co mple tion of the 20 11 Campa ign, whi c h we will hegin the
         appiit.:Jlio n cyck of in 1\\It' mo nths. Any additiomll work to improw campaign, not
         ..h:tailed within your audit . will bc uddrc sscd at the end or o ur reported res pon se .

                 I. 	 'Ihl: Chambersburg I.r cc has not maintained minutes or meetings and
                      di::.cuss ions in past years, howe ver, sillce Fe bruary 2010, whe n the LFCC beca me
                      :! W:H e that meeting minutes we re required and wo uld need to be mainta ined, the
                      I ,io'CC has bee n tak ing minutes of eac h committee mceting and the a t1 e ndancc,
                      actio ns ilnd deci sio llS o flhosc meetings. (2010 meeting minutes attached)
                          ... ..1. Al lillee tings a re no w held a t the otTi cc of the PC FO.lJllited Way o f
                                   Franklin Count y. with the exce ption of campaig n kit.: koff eve nts, which
                                   are lJeld in the fe deral workplace. UniLed Wa y Fra nklin County o!1ke was
                                   selec ted as th e best sitc fo r meetings to e nsure that federal c llIploycl..:s that
                 are located in different areas of community will leel that the location SIl\
                 is a neutral travel point for all federal agencies.
            b. 	 A new Campaign Chair has been appointed to the committee, Lt. Jamie
                 Brackett, and has agreed to work with the campaign lor 20 I0 and through
                 20 II, to help build a plan tor assuring commitment of committee
                 members, as well as to create a succession plan t()r campaign leadership so
                 that future campaign chairs will be brought into campaign prior to
                 application season and carry through the commitment until campaign is
                 closed. Three new committee members have already been recruited in the
                 20 I0 campaign season to bring new energy and a higher level of
                 commitment to the all volunteer LFCe.
           c. 	 A meeting schedule bas been circulated, directing that meetings will be
                 held the 4th Tuesday of all odd months, to ensure that the committee
                 follows a plan to keep campaign activities on track.
2. 	   The next application period for PCFO of the Chambersburg CFC Campaign is for
       January 2011. This application and all future applications will contain correct
       language, as directed by OPM regulation. As an eHort of good faith, the PCFO is
       resubmitting their request for the 20 I0 campaign with the corrected language, and
       will submit a sample copy of the 20 II request letter and budget to demonstrate
       that corrections are already in place to move forward, once next year's peFO
       Application is requested. (Corrected 2010 PCFO Application Attached)
3. 	   The peFO did not formally ask for approval of campaign expenses in 2008. The
       eFCO has met with the peFO and together, they have developed plans for the
       LFCC to meet prior to reimbursement of expenses lor the campaign and formally
       review all expenses at the January board meeting to ensure that the expenses are
       approved before reimbursement. (An agenda for the 2011 January meeting is
       attached to demonstrate that campaign practices are being adapted to mt:et
       requirements of OPM.)
4. 	   The CFCO ensures that minutes will reflect the review and approval of
       campaign expenses from the just completed campaign in January 2011 and
       all subsequent campaigns.
5. 	   The PCFO and CFCO reviewed the regulations of OPM together to ensure
       that both parties understand the responsibilities that relate to campaign
       expenses and reimbursement of those expenses. The LFCC will receive a
       training, related to all LFCC responsibilities, prior to review of PCFO
       expenses at the January LFCC meeting (meeting agenda for January
       attached)
6. 	   The peFO has requested the same administrative fee tor administration of
       campaign for at least the past 5 years, with no increase for changes and increases
       in staffing. This was done in an effort to keep campaign expenses as low as
       possible. Tn 2010, records of administrative time spent toward the eFe campaign
       were kept and for 2011 's proposal, the administrative costs will be directly
       reflective of amount of time dedicated to administration of campaign and the
       compensation of statT members who do the work of administering campaign.
       (Billed time record for 2009 and pay rates for PCFO staff are attached to
     demonstrate that campaign was billed for agreed upon administrative fec,
     although hours in 2009 exceeded budget.)
7. 	 In 2008 there was an incident of double billing for one invoice because an invoice
     appeared twice in the PCFO files for accounts payable. Because the LFCC will
     have the opportunity to double check all expenses (see item 3) in future years,
     there will be an additional check and balance in place to assure that items aren't
     accidently billed twice.(PCFO will also reimburse the CFC Campaign for
     $150 that was billed twice in 2008-action to be reviewed in minutes from the
     September 2010 meeting-attached)
8. 	 Documentation from Recommendations 3,4,5 and 6 demonstrate changes in the
     process for authorization of campaign expense reimbursement. The CFCO of the
     Chambersburg CFC Campaign ensures that the LFCC will follow through on
     proper documentation, review and approval of future expenses tor CFC
     Campaigns.
9. 	 At the January meeting of the LFCC, all volunteer committee members will
     receive a training to ensure that they understand and are reminded of their
     responsibilities as related to 5 CFR 950.106 and 950.l 04. (See January meeting
     agenda)
10. Audit fees have historically been charged lor the campaign that has been closed to
     the campaign that is beginning when expenses are reimbursed. This has been the
     practice of this campaign since it's beginning because the expense does not occur
     to the campaign until 2 years after the campaign is run. We now understand that
     OPM regulations require that the campaign expense be reimbursed in the year the
     campaign closes. (In February 2009, we should have been reimbursed for 2007
     campaign audit, which would not occur and be billed until August 2009). This
     creates an unusual challenge for our campaign, as we must bill for the estimated
     cost of the campaign before the cost occurs, and also created a situation where
     normally the PCFO would have to absorb the cost of the audit for one year to
     correct the situation. We have a unique opportunity to correct this because OPM
     performed the 2008 Audit. For 2010 campaign, the PCFO will continue to be
     reimbursed on schedule so that payment of the 2007 audit will occur in 20 10. In
     2011, the pcro will bill tor the 2009 audit instead of the 2008, because the 2008
     will have been completed at no cost to the campaign. This will correct our audit
     reimbursement schedule tor all future years of campaign. Audits will have to be
     reimbursed based on an estimate of the cost of services, and if necessary, a
     correction will be made later in campaign schedule to be sure that the actual cost
     of audit is reflected. The CFCO ensures that the PCFO and LrCC have been
     working together to create a plan lor the campaign expenses related to audits be
     moved into the proper campaign year.
1L The LrCC will be apprised of the OPM Calendar of Events each January and
     re~iew that calendar at the January board meeting. At all other board meetings, an
     update of disbursements and receipts will be provided by the PCFO to the LFCC
     lor review so that the LFCC can ensure that the PCFO follows all deadlines of the
     calendar, including notification ofCFC participating charities and federations of
     their designations. (See January agenda and other agendas)
12, 	The I,FCC will re\le\\ t1k: (>PM Calendar       or   events at each b{)urd meeting ,,~
     ensurc Ihat lhc peH) has provided all reports and pa~ ments 10 mcd all imposeJ
     deadlincs.
11, The pcro has maintaincd Ihl,.~ same accoullt f<)r the Chambersburg Combined
     Federal Campaign slllce the campaign was estahlishcd. That account ...v as
     established to ;l\oid ICcs associalcd \\ ilh typical checking accounts, hO\lieVer that
     account was not wlerest haring. As correct;\'e action, the pcro requested
     permission fj'om the CFCO in spring       or  20 I 0, immcdiately alkr the audit was
     conducleu, to make a changc to thc account and move fUllds into () savings
     account, allachcd to the dll~ck\llg account thai originally held the funds, so that
    campaign funding hears interest Il.)r all future camp:lIgns. The LFCC Committee
     approved tillS course of action at their Septemher 28, 20 I 0 Committee Meeting, as
     rcllcclcd ill Ihe" minutes. (Septemher' Committce l\{ccting Minutes Attached)
14. A 	policy has been urarted alld is included that doclIlllents the practices and policy
   or   Chambersburg. All stall of the PCFO ha\c been instructed 10 \()llo ..\' Ihe policy
     and to document all allcmpts al Il,llo\.\-up.(I*olicy [01' handling un-cashed
     checks :1ttached-apprmcd hy LFC(, 011 Sept 28, 1U 10)
15. As part    oreach regular Illeeting agcllda, the LFCC \\ill re\ie\\ all paymenls,
     receipts and disbursemcnts of th\.: Chambersburg ere Campaign, (sec attached
     meeting minutes from Scptelllb('I' 20 I n, .lnd .. geudas f(H- Jan. 20 II, Mar.
     20 II as (·xamples)
16, The CFCO ensures thai all flllUl\.' applications offlle Chambersburg eFe
     Campaigll will be 1\~VI\.~\\ed anC! the r,1-'('(' ( 'ollllllillee \.~(llllpktcs ils re\'icw or
     applicants 10 ensure thal all documclltatioll of rc\ie\\ IS cOlllpkted.
17. The CFCO alld Campaign ('hair (lrlhc Ch~ullhershurg eFe Campaign, have
     worked logcthcr to create a plan for cnsuring tat lIotices or d igibi Iit yare issued
     within 15 days o/" closing dale tor rcccipt of applicallts    or     future campaigns, For
     the 2011 campaign, the LFCC IS already planning ttlllled 011 1\-larch 29, 20l L
     Applications Ic)! Ihe call1paign \\ill be due 011 f\1arch 201h, ,\hiell will allow 8 days
     of preparation bcll.)lc the COIllIIIIUCC meets 10 rcyic\\ ap(lli\~alions, The review
     cOlllmiUce is being expanded to 20 members so that adequate l ,FCC mcmhcrship
     is cnsured In pr(l\lde a lllle-day re\lC\\ Ill' applications h\· c()lIIl11ittet:, alld
     immedIate turnaroulld Ii 1I COlllllllllllcatiollor   appl icalllS In ,\pnl 5, 201 I.




                          DELETED BY OPM OIG
                      NOT RELEVANT TO THE REPORT
        "'",
                               DELETE!} BY OPM OIG 

                           NOT RELEVANT TO THE REPORT 





Til l..: Chamhe rsburg Combined h.!d L' r~1 1 Ca mpai gn has run a low cosl, effective cam pai gn
to emplo y!.!",s in our rcg ioll for llIallY years. Both the tFee and th e pcro thai have
hi::>to ricall y 1ll'-ltlU gCJ thi s c alilpai gn take the campaign serio us ly and cafe deeply lor thi s
conUlHlIlity . .'\ number or the findin gs reported during the 2008 were based in
rcquin:rlh': I1 LS that bUill the Lr ee alld Ihe r CFO d id not understand prio r to Ill!: autliL
The C h<1llloo.:rshurg Campai g n hus dcrnomarated gro\\1h in recent years of our c ampaign,
and we helie "c thai the required cha nges C::l n be made in order to meet or exceed (he
rCljUin:lllcnL<; or OI'M , as well as to grow the campaign ror future years. Wc're l:xc itcd
,rhoul the opport unities prcsc nkd 10 improve our cam pa ign and arc looking torward to
incr..:ased ,;OIlUllun ic:.lli lHI ~Hld tealllwor k tll al our recently initi<llcd plan s creale .

PI..:ast.: dOli " h..::-; ilal e to contac t eitht.:r A n g ie Coons, as CFCO o f the Campaign , or Am y
"Iicks , as PCFC ) I )jn: l;(or if ) o u ban: ill I)' questions o r concerns regardin g o ur plans for
thc UPClllllilig call1 p:lign i.wd ruturc c:Hllpaigns.




         C1", '" be " ,I"" g. C I- C emn pa i gn
E xec uti n: l)irc..:\oL United Way Frankl in County




(Teo. <. ' hatllhLTshurg Comhincd Federal O unpai gn
(TC l'I"O!!!":ull Malla ~~cr . l .ell c1"[.. . c llIl\ Arm y n e pol




            , .

